Nos. 20-512, 20-520
IN THE SUPREME COURT OF THE UNITED STATES
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,

Applicant,
v.
SHAWNE ALSTON, ET AL.,

Respondents.
AMERICAN ATHLETIC CONFERENCE, ET AL.,

Applicants,
v.
SHAWNE ALSTON, ET AL.,

Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CONSENT APPLICATION TO SET DEADLINE
FOR REPLY BRIEFS ON THE MERITS
To the Honorable Elena Kagan, Circuit Justice for the Ninth Circuit:
This Court’s Rule 25 provides that ‘‘any reply brief must actually be received by
the Clerk not later than 2 p.m. 10 days before the date of oral argument.’’ Argument in
these cases is set for March 31 (all dates herein are in 2021), but the clerk’s office has
notified applicants that, because March 21 is a Sunday, applicants’ reply briefs must be
filed by 2 p.m. on March 19, absent an order from a Justice or the Court. Applicants------

petitioners in these consolidated cases--accordingly request an order setting the
deadline for their reply briefs at 2 p.m. on March 21.
The requested order would ensure that this Court received the reply briefs
within the time contemplated by Rule 25. It would also improve the presentation of the
issues-and thus assist the Court-by providing petitioners with a more reasonable
period of time in which to respond to the many amicus briefs expected to be filed in
support of respondents on March 10.
Respondents consent to this application.
Respectfully submitted,

l~J,Gi'Qu~/~4,4:/>

SETH P. WAXMAN

ANDREW J. PINCUS
MAYER BROWN LLP

I

WILMER C UTLER PICKERING
HALE AND DORR LLP

1999 K Street N.W.
Washington, D.C. 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for The Big Ten Conference~ Inc.
(.iled on behalfofand with the consent of
counsel for allpetitioners in No. 20-512)

1875 Pennsylvania Avenue N.W.
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com
Counsel for the NCAA

FEBRUARY 18, 2021

-2-

CERTIFICATE OF SERVICE
On this 18th day of February 2021, I served a copy of the foregoing by electronic
mail and overnight courier on each of the following:
STEVEN W. BERMAN
HAGENS BERMAN SOBOL SHAPIRO LLP

1301 Second Avenue, Suite 2000
Seattle, WA 98101
(206) 623-7292
steve@hbsslaw.com

LINDA T. COBERLY
WINSTON & STRAWN LLP

35 West Wacker Drive
Chicago, IL 60601
(312) 558-8768
lcoberly@winston.com

SA-vii? ~Jtgol,~~

SETH P. WAXMAN

I

